HHS/OIG-Audit--"Expansion of the Diagnosis Related Group Window, (A-01-92-00521)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Expansion of the Diagnosis Related Group Payment Window," (A-01-92-00521)
July 6, 1994
Complete
Text of Report is available in PDF format (3.3 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report provides the results of our review of the diagnosis related group payment window. We estimate
that approximately $8.6 million in improper payments for nonphysician outpatient services were made to hospitals under
the prospective payment system for the period November 1990 through December 1991. We also identified approximately $4.1
million in improperly charged coinsurance and deductibles related to the improper payments. Our analysis of hospital responses
indicated that improper billings were made primarily because of clerical errors and misinterpretation of the regulations.
In additional to financial adjustments, we recommended correction of procedural weaknesses.